December 17, 2019
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006-1101
Main Tel +1 202 263 3000
Main Fax +1 202 263 3300
www.mayerbrown.com

Andrew J. Pincus
Direct Tel +1 202 263 3220
Direct Fax +1 202 263 5220
apincus@mayerbrown.com

Cargill, Incorporated v. John Doe I, et al., No. 19-453

Dear Mr. Harris:
On behalf of Petitioner Cargill, Incorporated, I write regarding the above-captioned
petition for a writ of certiorari.
In accordance with Supreme Court Rule 15.5, Petitioner waives the 14-day waiting
period and requests that the Petition and Brief in Opposition be distributed to the
Court on December 23, 2019, for consideration at the January 10, 2020 conference.
Petitioner will submit a reply brief no later than December 23 so that it can be
distributed with the petition and other briefs filed in this case.
Thank you for your courtesy and attention to this matter.
Sincerely,
/s/Andrew J. Pincus
Andrew J. Pincus
cc: Paul L. Hoffman, Counsel for Respondents

Mayer Brown LLP operates in combination with other Mayer Brown entities (the "Mayer Brown Practices"), which have offices in North America,
Europe and Asia and are associated with Tauil & Chequer Advogados, a Brazilian law partnership.

